&
V

IN THE

SUPREME COURT OF THE UNITED STATES

Adrian G. Rangel
PETITIONER
vs.
Steven P. Meyer et al....
RESPONDENTS

FILED
OCT 1 5 2020
ON PETITION FORA WRIT OF CERTIORARI TO

OFFICE OF THE CLERK
SUPREME COURT u r

THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

STEVEN P. MEYER
c/o Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.
Indianapolis, Indiana
46204-2770

MATTHEW D. BOULAC
c/o Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.
Indianapolis, Indiana
46204-2770

VALERIE CHURCH
c/o Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.
Indianapolis, Indiana
46204l2T7Q__.-----

RECEIVED
OCT 2 1 2020

OFFICE OF THE CLERK
qi IPRFME COURT. U.S. J

QUESTIONS PRESENTED

I.

Did Petitioner Adrian Rangel receive “meaningful due process” from
the Tippecanoe County, Indiana Superior Trial Court 2, the Indiana Court
of Appeals, the Hammond Indiana Federal District Court and the United
States Seventh Circuit Court Of Appeals?

Page 1 of 23

-*

LIST OF PARTIES
[ x } All parties appear in the caption of this case on the cover page.

Page 2 of 23

TABLE OF CONTENTS
QUESTIONS

p. 1

LIST OF PARTIES

p. 2

TABLE OF CONTENTS

p. 3

INDEX TO CONSOLIDATED APPENDICES

P-4

TABLE OF AUTHORITIES

p. 5

STATUES AND RULES

pp. 6-7

PETITION FOR WRIT OF CERTIORARI

p.8

JURISDICTION

P-9
pp. 10-11

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
STATEMENT OF CASE

pp.12-14

REASONS FOR GRANTING THE WRIT

pp. 15-20
p.21

CONCLUSION

pp, 22-23

PROOF OF SERVICE

Page 3 of 23

INDEX TO CONSOLIDATED APPENDICES

APPENDIX A

COURT OF APPEALS OPINION (June 5, 2020)

APPENDIX B

DISTRICT COURT OPINION (November 21,2019)

APPENDIX C

DISTRICT COURT IFP ORDER (February 6, 2019)

APPENDIX D

Indiana Court of Appeals Dismissal Order (3/29/2018)

APPENDIX E

Notice of (non)Completion of Clerk’s Record (5/9,2017)

APPENDIX F

ORDER FOR WRIT OF BODY ATTACHMENT (5/9/2017)

APPENDIX G

MOTION FOR FINDINGS OF FACT AND CONCLUSIONS
OF LAW (April 2, 2017)

Page 4 of 23

TABLE OF AUTHORITIES CITED
SUPREME COURT CASES
l) D.C. Court of Appeals v. Feldman, 460 U.S. 462 (1983)
2) Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C.

UNITED STATES COURT OF APPEALS CASES
l) Croley v. Joint Commission Judicial Administration, 895 F.3d 22,29 (D.C. Cir. 2018)
2) GASH Associates v. Village of Rosemont, 995 F.2d 726, 729 (7th Cir.1993)

UNITED STATES DISTRICT COURT CASES
Rangel v. Meyer et al. United States District Court for the Northern District of
Indiana , No 2G8-cv413

INDIANA COURT OF APPEALS CASES
l) Rangel v. Rangel, Indiana Court of Appeals, 79A04-1705-DR-932

TIPPECANOE COUNTY. INDIANA. SUPERIOR COURT 2 CASE
Rangel v. Rangel, Tippecanoe County, Indiana, Superior Court 2, 79D02-0611-DR00386

Page 5 of 23

STATUTES AND RULES
l) Federal Rules of Civil Procedure, Rule 38. Right to a Jury Trial»' Demand RIGHT
PRESERVED. The right of trial by jury as declared by the Seventh Amendment to the
Constitution—or as provided by a federal statute—is preserved to the parties
inviolate
2) Rule 56(c) of the Federal Rules of Civil Procedure provides that summary judgment
"shall be rendered forthwith if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, show
that there is no genuine issue as to any material fact and that the moving party is
entitled to a judgment as a matter of law."
3) Rule 56(c) " [i]t is true that the issue of material fact required by Rule 56(c) to be
present to entitle a party to proceed to 249*249 trial is not required to be resolved
conclusively in favor of the party asserting its existence; rather, all that is required
is that sufficient evidence supporting the claimed factual dispute be shown to
require a jury or judge to resolve the parties' differing versions of the truth at trial."
4) UNITED STATES SUPREME COURT RULE 24: Briefs on the Merits: In General.
“ At its option, however, the Court may consider a plain error not among the
questions presented but evident from the record and otherwise within its
jurisdiction to decide.”

Page 6 of 23

5) 18 U.S.C. 1512(b)., I. Whoever II. Knowingly A. uses intimidation B. threatens, or
C. corruptly persuades another person, or D. attempts to do so, or E. 1. engages in
misleading conduct 53 2. toward another person, III. with intent to A. 1 . a.
influence, b. delay, or c. prevent ,2. the testimony of any person, 3 in an official
proceeding.....

Page 7 of 23

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
For cases from the federal courts:
The opinion of the United States Court of Appeals appears at Appendix _A
to the petition and is not reported as of yet per clerk’s office.
The opinion of the United States District Court appears at Appendix_B.
petition and is not reported as of yet per clerk’s office.

to the

For cases from state courts:
The opinion of the Indiana Court of Appeals appears at Appendix_D,
petition and is not reported as of yet per clerk’s office.

to the

The opinion of the Tippecanoe County Superior Trial Court 2 appears at Appendix
F
to the petition and is not reported as of yet per clerk’s office.

Page 8 of 23

JURISDICTION

[X] For cases from federal courts:

The date on which the United States Court of Appeals decided my case was
June 5, 2020.
[x ]

No petition for rehearing was timely filed in my case.

The jurisdiction of this Court is invoked under 28 U.S.C.&1254(l).

For cases from state courts:

[X]

The date on which the Indiana Court of Appeals decided my case was
March 29, 2018.

The jurisdiction of this Court is invoked under 28 U.S.C.&1257(a).

Page 9 of 23

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fifth Amendment ( Right to Confront Accuser)
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger,' nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
p. 15

Fourteenth Amendment ( DUE PROCESS )
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law', nor deny to any person
within its jurisdiction the equal protection of the laws

Page 10 of 23

p. 15

Seventh Amendment (trial by jury )
"In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury shall
be otherwise re-examined in any Court of the United States, than according to the
p. 15

rules of the common law”

Page 11 of 23

STATEMENT OF CASE
Petitioner's contended allegations are against Respondents Steven P Meyer,
Tippecanoe County Judge, IV Commissioner Matthew Boulac, Tippecanoe County
Prosecutor Valerie Church. Respondents arbitrarily increased Plaintiff’s past due child
support from under $8000.00 to over $32,000.00 in one year. Petitioner contends that
the Respondents are strategically targeting minorities and poor people who are unable
to pay for legal defense or court transcripts in a corrupted, twisted and rigged system.
Petitioner contends that Respondents arbitrarily jail minorities and poor people to both
insure and increase IV-D funding, making under the table kickbacks from local
businessmen for free labor via court ordered community service (modern day slavery or
peonage). Petitioner contends that the Respondents bench warrant their victims,
unconstitutionally jail them without meaningful due process, and then dole their victims
out no-pay to campaign supporting Tippecanoe County businessmen or for at-a-boys in
a greedy, corrupted fascist Indiana privatized for profit jail system. Petitioner is a
recently homeless Mexican-American veteran.
Petitioner appealed the above Respondents’ decisions twice to the Indiana Court of
Appeals, case 18-A-DR-01432, case 79A02-1709-DR-02073. Each time the Petitioner
received the meaningless due process run-around by the fascist Indiana Court of
Appeals. Both times the cases went nowhere because the Tippecanoe County Superior
Trial Court 2 took over a year to prepare the transcript record enabling the Indiana Court
of Appeals to dismiss Petitioner’s appeals.(please see APPENDIX D and APPENDIX E)

Page 12 of 23

On the Tippecanoe County Superior Trial Court 2 level, Petitioner filed a Motion for
Findings of Fact and Conclusions of law (APPENDIX G) and was completely ignored in
all of Petitioner’s subsequent filings to the Tippecanoe County Superior Court 2 trial
court. 17 Motions were constructively ignored.
On Nov. 9, 2018 there was yet another telephonic hearing under threat of
incarceration for Petitioner.(APPENDIX F) Petitioner’s stress of potentially losing his
freedom took a tremendous emotional and mental toll on Petitioner’s ability to function
as a human being; tremendously increasing Petitioner’s forgetfulness, focus, and
physical balance among other things.
The child support is allegedly due on a son whom the Petitioner has only seen 3
times in the last 19 years. Allegedly, the now 24 year old man, is on disability. Petitioner
has never seen any proof of the child, now man, being on disability nor has the
Petitioner been given proof of this man’s disability despite repeated requests to
Tippecanoe County Judge Steven Meyer, IV Commissioner Matthew Boulac and
Prosecutor Valerie Church. Furthermore, Petitioner contends that the Respondents
have operated with a one track mind to turn Petitioner’s life into a living hell without the
benefit of meaningful due process or substantive due process or equal protection rights.
Petitioner further contends that Indiana state courts negatively discriminate against all
poor people of which minorities make up a majority in that poor people simply don’t
have the money to hire competent, nonpolitically influenced attorneys.
Petitioner Adrian Rangel continues to contend that the regular consistent pattern of
intentional and deliberate tandem actions between the Respondents and the Indiana
Court of Appeals serves as evidence of malicious intent by both the Respondents and

Page 13 of 23

the Indiana Court of Appeals to violate Petitioner Adrian Rangel’s substantive and due
process and other constitutional rights (trial by jury).
Petitioner Adrian Rangel requests injunctive relief against Matthew D. Boulac, both in
official and unofficial capacity, Steven P. Meyer, both in official and unofficial capacity
and Valerie Church both in official and unofficial capacity for Conspiracy to Violate Civil
Rights; namely, due process, substantive due process and equal protection. In addition
Adrian Rangel requests compensatory relief of $3,000,000.00 ( 300 times the
$10,000.00 amount arbitrarily added onto Adrian Rangel’s outstanding child support 300 being a conservative measure of how many other individuals the Tippecanoe
County, Indiana, Superior Court 2 may have also abused.) against Matthew D. Boulac,
both in official and unofficial capacity, Steven P. Meyer, both in official and unofficial
capacity and Valerie Church, both in official and unofficial capacity, for negligent training
and supervision as a direct result of the Respondents’ violation of Petitioner Adrian
Rangel’s due process, substantive due process and equal protection constitutional
rights.
Lastly, Petitioner Adrian Rangel requests $3,000,000.00 in punitive damages against
Matthew D. Boulac, both in official and unofficial capacity, Steven P. Meyer, both in
official and unofficial capacity and Valerie Church for negligent training and supervision
resulting in the County and State Courts’ malicious violation of Adrian Rangel’s due
process, substantive due process and equal protection constitutional rights resulting in
both intentional and negligent infliction of emotional distress upon Petitioner Adrian
Rangel. Petitioner Adrian Rangel had demanded a jury trial.

Page 14 of 23

REASONS FOR GRANTING THE PETITION
Question
Did Petitioner Adrian Rangel receive “meaningful due process” from the
Tippecanoe County, Indiana Superior Trial Court 2, the Indiana Court ofAppeals,
the Hammond Indiana Federal District Court and the United States Seventh
Circuit Court OfAppeals ?
Summary of Argument
Petitioner contends that in light of the tens maybe hundreds of due process violations
by the Respondents against the Petitioner throughout the Tippecanoe County, Indiana
Superior Court 2 trial and Petitioner’s Indiana Court of Appeals appeal that both the
Hammond Indiana Federal Trial Court and the United States Seventh Circuit Court of
Appeals were derelict in their duty in not allowing Petitioner’s discovery and in
dismissing the close to 100 due process violations by Respondents’ attorneys ( please
see DE 19, DE 28, DE 46 and DE 56 of Hammond Indiana Federal Trial Court Record (
Rangel v. Meyer et al. United States District Court for the Northern District of Indiana
No 2:18-cv413 ).
Petitioner contends that because Rooker-Feldman and Gash Assoc, v. Village of
Rosemont do not specifically apply and or hold in this case that the Hammond Indiana
Federal Trial Court’s order (APPENDIX B) and opinion should also likewise not hold in
this case along with the United States Court of Appeals for the Seventh Circuits’ order
and opinion (APPENDIXA).

Page 15 of 23

Petitioner contends that the Hammond, Indiana Federal Trial Court erred thru state
bias in dismissing a 1983 case against state Respondents without allowing discovery
much less a trial by jury.
ARGUMENT

Did the Federal Trial Court violate Plaintiff Adrian G Rangel’s Fifth Amendment right
to confront his accuser, Seventh Amendment right to a trial by jury and Fourteenth
Amendment right to due process in arbitrarily dismissing Plaintiff’s complaint using
Rooker-Feldman and Gash Associates v. Village of Rosemont?

Petitioner has always contended and continues to contend that he is not contesting
state court final orders but the process (administrative misdeeds) used by the
Respondents in arriving at their arbitrary orders. A quick review of the record will reveal
that the Petitioner attempted to confront the state Respondents regarding the child now
man on a number of occasions only to be ignored by the Respondents. This resulted in
2 Appeals to the Indiana Court of Appeals which were also ignored because the
Respondents would not release the Tippecanoe County, Indiana Superior Trial Court 2
record/transcript to the Indiana Court of Appeals. (APPENDIX D and APPENDIX E)

This is what the DC Circuit Court of Appeals found in 2018 in a very similar case
regarding administrative misdeeds'.

Page 16 of 23

“ (i) He was a state-court winner, not a loser, (ii) The harms of which the current
suit complains flow, not from any District of Columbia court judgment, but from
administrative handling of money the RNC paid to the court in final satisfaction
of a judgment, (iii) Croley’s case seeks review and rejection not of any statecourt judgment, but of the adequacy under property and disability law
of court administrators’ handling of funds entrusted to themon Croley’s behalf
after the state court entered its judgment. See Exxon Mobil Corp., 522 U.S. at
284. USCA Case #15-5153 Document #1739377 Filed: 07/06/2018 Page 11 of
18 12 A. Croley first alleges that the Joint Committee violated his property rights
by retaining and failing to distribute to him the money judgment he won and the
RNC paid to the court registry. The court deemed the RNC’s tort judgment
satisfied, it paid out a portion of Croley’s winnings to counsel to cover his fee, but
then retained the balance of the funds for more than thirteen years. No District of
Columbia court order required court administrators to withhold Croley’s money
from him, and no such order is on appeal here. Croley rests his property claims
on both D.C. law and the United States Constitution. He brings common-law
claims for conversion and theft, Compl. &para; 43, as well as for violation of the
D.C. unclaimed funds law, D.C. Code § 41-101 et seq., which calls on the city to
take possession of unclaimed property and to notify the property’s owner, id. §§
41-118, 41-120; Compl. &para; 37. Croley also alleges that the Joint Committee
violated the Due Process and Takings Clauses of the United States Constitution
when courthouse personnel obfuscated the location of his funds, thus effectively
“seiz[ingj” them and “disrupt[ingj” his access to them. See Compl. &para;&para;

Page 17 of 23

13, 20. Those claims are based on Croiey’s allegation that administrative
personnel in the D.C. court system “falsely advised” him to collect his award
from an “Office of Unclaimed Funds” and otherwise failed to meet statutory
obligations. Id. &para; 37. He seeks “punitive damages, costs, interest and fees
as allowed by law.” Id. &para; 21. The Rooker-Feldman doctrine bars review
only of judicial orders, see Feldman, 460 U.S. at 486, but Croiey’s challenge is to
administrative conduct, not any judicial order. When “the proceedings giving rise
to the rule are non-judicial[,] the policies prohibiting United States
District Court review of final USCA Case #15-5153 Document #1739377 Filed:
07/06/2018 Page 12 of 18 13 state-court judgments are not implicated” and “28
U.S.C. § 1257 does not act as a bar to the District Court’s consideration of the
case.” Feldman, 460 U.S. at 486; see also Singletary, 766 F.3d at 72; Stanton v.
D.C. Court of Appeals, 127 F.3d 72, 75 (D.C. Cir. 1997). The Joint Committee at
oral argument recognized that if the D.C. Clerk’s Office or other administrative
entities misled Croley regarding the whereabouts of his property, such misdeeds
would not be barred by Rooker-Feldman. See Oral Arg. Tr. 48:15-50:12, 61:814. Croiey’s complaint on its face challenges precisely such administrative
misdeeds. “ ( United States Court of Appeals FOR THE DISTRICT OF
COLUMBIA CIRCUIT Argued April 23, 2018 Decided July 6, 2018 No. 15-5080
JOHN DOUGLAS CROLEY, APPELLANT v. JOINT COMMITTEE ON JUDICIAL
ADMINISTRATION)

Page 18 of 23

Also, GASH cannot possibly apply in this case since GASH was actually trying
to relitigate a state court final order which Petitioner Adrian Rangel is not
attempting to do. Petitioner Adrian Rangel is merely attempting to highlight the
administrative due process misdeeds of the Respondents in arriving at their final
orders. Additionally, GASH had 2 full appeals in the state courts. Petitioner
Adrian Rangel never received full and fair Appeals with the Indiana Court of
Appeals but was rather given the run-around by the Indiana Court of Appeals as
a direct result of the Respondents not releasing the Respondents' Tippecanoe
County, Indiana Superior Trial Court Record/transcript to the Indiana Court of
Appeals without in forma pauperis Petitioner first paying the transcript fee of
$1200.00. Petitioner views the Respondents’ actions as administrative due
process misdeeds just as in the United States Court of Appeals for the District of
Columbia Case 15-5080 of John Douglas Crowley v. Joint Committee on Judicial
Administration.

Based on the aforementioned, Petitioner contends that both the Hammond
Indiana Federal District Trial Court opinion (APPENDIX B) and United States
Court of Appeals for the Seventh Circuit opinion (APPENDIX A) erred in not
reversing the Indiana Court of Appeals’ order (APPENDIX D) for Tippecanoe
County, Indiana Superior Court 2’s handling of transcript fees producing the
delayed release of transcripts, in effect, killing Petitioner’s appeals to the Indiana
Court of Appeals. Again, Petitioner contends that both the Hammond Indiana
Federal District Trial Court opinion (APPENDIX B) and the United States Court of
Page 19 of 23

Appeals for the Seventh Circuit opinion (APPENDIX A) erred by arbitrarily
dismissing Petitioner’s appeals through the miss-application of Rooker-Feldman
and GASH cases and thereby exhibiting negative bias towards the Petitioner in
branding Petitioner a “state court loser”.
Petitioner thus respectfully requests that he be granted certiorari for all the
aforementioned reasons.

Page 20 of 23

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: October

>^2020

ADRIAN G RANGEL
POB 1191
LAKE ZURICH, IL 60047
312-696-9889

Page 21 of 23

